Department of Health and Human Services
                   OFFICE OF 

              INSPECTOR GENERAL 





    NONINSTITUTIONAL PROVIDERS 

     IN NEW YORK STATE DID NOT 

    ALWAYS RECONCILE ACCOUNT 

   RECORDS WITH CREDIT BALANCES 

     AND REPORT THE ASSOCIATED 

     MEDICAID OVERPAYMENTS TO 

          THE STATE AGENCY 



  Inquiries about this report may be addressed to the Office ofPublic Affairs at
                           Public.A{fairs@oig.hhs.gov.




                                                    James P. Edert 

                                               Regional Inspector General 

                                                   for Audit Services 


                                                        June 2014 

                                                      A-02 -11-01036 

                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices




    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as


 questionable, a recommendation for the disallowance of costs


 incurred or claimed, and any other conclusions and


 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating


 divisions will make final determination on these matters.


                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer Medicaid. At the Federal level, the Centers for
Medicare & Medicaid Services (CMS) administers Medicaid. Each State administers its
Medicaid program in accordance with a CMS-approved State plan. Although the State has
considerable flexibility in designing and operating its Medicaid program, it must comply with
applicable Federal requirements. In New York State, the Department of Health (State agency)
administers Medicaid.

Providers of Medicaid services submit claims to States to receive compensation. The State
agency uses the Medicaid Management Information System, a computerized payment and
information reporting system, to process and pay Medicaid claims. Pursuant to 42 CFR section
433.10, the Federal Government pays its share (Federal share) of State medical assistance
expenditures according to a defined formula.

A credit balance is an improper or excess payment made to a provider as a result of recipient
billing or claims-processing errors. Credit balances may occur when a provider’s reimbursement
for services that it provides exceeds the allowable amount or when the reimbursement is for
unallowable costs, resulting in an overpayment. Credit balances also may occur when a provider
receives payments from Medicaid and another third-party payer for the same services.

Providers record and accumulate charges and reimbursements for services in each patient’s
account record. Providers should review account records containing credit balances to include a
reconciliation of all charges and payment records, and, if the reconciliation identifies a Medicaid
overpayment, the provider should report the overpayment to the State. The State must refund the
Federal share of the overpayment to CMS (the Act, § 1903(d)(2)(A) and 42 CFR pt. 433,
subpart F).

Effective March 23, 2010, States have up to 1 year from the date of discovery of an overpayment for
Medicaid services to recover, or attempt to recover, the overpayment before making an adjustment to
refund the Federal share. Except for overpayments resulting from fraud, the State must make the
adjustment no later than the deadline for filing the quarterly expenditure report (Form CMS-64) for
the quarter in which the 1-year period ends, regardless of whether the State recovers the
overpayment.

In general, an overpayment is discovered when a State either (1) notifies a provider in writing of an
overpayment and specifies a dollar amount subject to recovery or (2) initiates a formal recoupment
action. Discovery may also occur when the provider initially acknowledges a specific overpaid
amount in writing to the State. If a Federal review (such as an audit) indicates that a State has failed
to identify an overpayment, the overpayment is considered discovered on the date the Federal
official first notifies the State in writing of the overpayment and specifies a dollar amount subject to
recovery.



                                                  i
This audit is part of a multistate review of credit balances at acute care hospitals, nursing
facilities, and certain noninstitutional providers. In New York, the audit focused on
noninstitutional providers.

OBJECTIVES

Our objectives were to determine whether noninstitutional providers reconciled account records
with credit balances and reported the associated Medicaid overpayments to the State agency.

SUMMARY OF FINDINGS

Noninstitutional providers in New York did not always reconcile account records with credit
balances and report the associated Medicaid overpayments to the State agency. Identification
and reporting of Medicaid overpayments was at the discretion of the providers since the State
agency did not require providers to exercise reasonable diligence in reconciling account records.
Three of the eight providers that we randomly selected for review implemented and adhered to
procedures for periodically reconciling account records and reporting identified Medicaid
overpayments as required. However, the remaining five providers had no reconciliation
procedures or did not adhere to established procedures.

Of the 54 account records with credit balances in our sample, 51 contained unresolved Medicaid
overpayments totaling $2,009 ($1,113 Federal share). On the basis of these results, we estimated
that the State agency could realize an additional statewide recovery of at least $899,745
($498,269 Federal share) from our audit period and obtain future savings if it enhanced its efforts
to recover overpayments in provider accounts.

RECOMMENDATIONS

We recommend that the State agency:

   •		 refund $2,009 ($1,113 Federal share) to the Federal Government for overpayments paid
       to the selected noninstitutional providers and

   •		 enhance its efforts to recover additional overpayments estimated at $899,745 ($498,269
       Federal share) from our audit period and realize future savings by requiring providers to
       exercise reasonable diligence in reconciling account records containing credit balances
       and reporting the associated Medicaid overpayments.

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In written comments on our draft report, the State agency did not indicate concurrence or
nonconcurrence with either of our recommendations. After reviewing the State agency’s
comments, we maintain that our findings and recommendations are valid.




                                                  ii
                                                   TABLE OF CONTENTS





INTRODUCTION ...............................................................................................................1



          BACKGROUND .....................................................................................................1


            Medicaid Program..............................................................................................1


            Federal and State Requirements Related to Medicaid Overpayments ...............1


            Selected Noninstitutional Providers...................................................................2



          OBJECTIVES, SCOPE, AND METHODOLOGY .................................................2


            Objectives ..........................................................................................................2


            Scope ..................................................................................................................2


            Methodology ......................................................................................................3



FINDINGS AND RECOMMENDATIONS........................................................................4



          ACCOUNT RECORDS WITH UNRESOLVED MEDICAID 

           OVERPAYMENTS .............................................................................................4



          POLICIES AND PROCEDURES NOT ALWAYS FOLLOWED .........................5



          MEDICAID OVERPAYMENTS AND ESTIMATED 

           PROGRAM RECOVERIES ................................................................................5



          RECOMMENDATIONS .........................................................................................5



          STATE AGENCY COMMENTS AND


           OFFICE OF INSPECTOR GENERAL RESPONSE ...........................................5



APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: STATE AGENCY COMMENTS




                                                                      iii
                                       INTRODUCTION



BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer Medicaid. At the Federal level, the Centers for
Medicare & Medicaid Services (CMS) administers Medicaid. Each State administers its
Medicaid program in accordance with a CMS-approved State plan. Although the State has
considerable flexibility in designing and operating its Medicaid program, it must comply with
applicable Federal requirements. In New York State, the Department of Health (State agency)
administers Medicaid.

Providers of Medicaid services submit claims to States to receive compensation. The State
agency uses the Medicaid Management Information System, a computerized payment and
information reporting system, to process and pay Medicaid claims. Pursuant to 42 CFR section
433.10, the Federal Government pays its share (Federal share) of State medical assistance
expenditures according to a defined formula.

A credit balance is an improper or excess payment made to a provider as a result of recipient
billing or claims-processing errors. Credit balances may occur when a provider’s reimbursement
for services that it provides exceeds the allowable amount or when the reimbursement is for
unallowable costs, resulting in an overpayment. Credit balances also may occur when a provider
receives payments from Medicaid and another third-party payer for the same services.

Providers record and accumulate charges and reimbursements for services in each patient’s
account record. Providers should review account records containing credit balances to include a
reconciliation of all charges and payment records, and, if the reconciliation identifies a Medicaid
overpayment, the provider should report the overpayment to the State. The State must refund the
Federal share of the overpayment to CMS (the Act, § 1903(d)(2)(A) and 42 CFR pt. 433,
subpart F).

Federal and State Requirements Related to Medicaid Overpayments

Under 42 CFR section 433.312, States are responsible for recovering from providers any amounts
paid in excess of allowable Medicaid amounts and for refunding the Federal share to CMS.

Effective March 23, 2010, States have up to 1 year from the date of discovery of an overpayment for
Medicaid services to recover, or attempt to recover, the overpayment before making an adjustment to
refund the Federal share. Except for overpayments resulting from fraud, States must make the
adjustment no later than the deadline for filing the quarterly expenditure report (Form CMS-64) for
the quarter in which the 1-year period ends, regardless of whether the State recovers the
overpayment.




                                                1


In general, an overpayment is discovered when a State either (1) notifies a provider in writing of an
overpayment and specifies a dollar amount subject to recovery or (2) initiates a formal recoupment
action. Discovery may also occur when the provider initially acknowledges a specific overpaid
amount in writing to the State. If a Federal review (such as an audit) indicates that a State has failed
to identify an overpayment, the overpayment is considered as discovered on the date the Federal
official first notifies the State in writing of the overpayment and specifies a dollar amount subject to
recovery. 1

Selected Noninstitutional Providers

This audit is part of a multistate review of credit balances at acute care hospitals, nursing
facilities, and certain noninstitutional providers. 2 In New York, our audit focused on
noninstitutional providers. Table 1 identifies the primary classification for each of the eight
noninstitutional providers that we randomly selected for review.

                                      Table 1: Primary Classification

                          Provider                                  Description
                  Provider 1                       Radiology
                  Provider 2                       Ambulance services
                  Provider 3                       Radiology
                  Provider 4                       Oncology and hematology
                  Provider 5                       Radiology
                  Provider 6                       Optician
                  Provider 7                       Ophthalmology
                  Provider 8                       Internal medicine

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether noninstitutional providers reconciled account records
with credit balances and reported the associated Medicaid overpayments to the State agency.

Scope

Our audit period covered 54 account records with unresolved credit balances as of the quarter
ended September 30, 2011. The unresolved credit balances totaled $2,120.

We did not review the overall internal control structure of the State agency or the
noninstitutional providers that we sampled. We limited our internal control review to obtaining


1
    42 CFR § 433.316.
2
  Noninstitutional providers are any person or entity with a Medicaid provider agreement other than a hospital, long-
term care nursing facility, or an intermediate care facility for individuals with intellectual disabilities.


                                                          2


an understanding of the policies and procedures that the eight sampled providers used to
reconcile credit balances and report overpayments to the State agency.

We conducted fieldwork at the State agency’s offices in Albany, New York and the eight
noninstitutional providers at various locations throughout New York.

Methodology

To accomplish our objectives, we:

   •		 reviewed applicable Federal laws and regulations and State agency policy guidelines
       pertaining to Medicaid overpayments;

   •		 interviewed State agency personnel responsible for monitoring Medicaid overpayments;

   •		 created a sampling frame for the first stage of our sample design consisting of 3,591
       noninstitutional Medicaid providers from which we randomly selected 8 providers
       (Appendix A);

   •		 reviewed the providers’ policies and procedures for reviewing credit balances and 

       reporting overpayments to the State agency;



   •		 determined the providers’ total number and associated dollar amount of all account
       records with Medicaid credit balances;

   •		 created a sampling frame for the second stage of our sample design that included credit
       balances that were greater than $3 and unresolved for at least 60 days;

   •		 reviewed patient payment data, remittance advices, details of patient accounts receivable,
       and additional supporting documentation for each of the selected account records to
       determine Medicaid overpayments that should be reported to the State agency;

   •		 estimated statewide unrecovered Medicaid overpayments associated with unresolved
       credit balances that should be reported to the State agency;

   •		 determined whether the provider had taken action, subsequent to our audit period, to
       report to the State agency the Medicaid overpayments identified in our sample; and

   •		 discussed our results with the providers in our sample.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.



                                                3


                              FINDINGS AND RECOMMENDATIONS



Noninstitutional providers in New York did not always reconcile account records with credit
balances and report the associated Medicaid overpayments to the State agency. Identification
and reporting of Medicaid overpayments was at the discretion of the providers since the State
agency did not require providers to exercise reasonable diligence in reconciling account records.
Three of the eight providers that we randomly selected for review implemented and adhered to
procedures for periodically reconciling account records and reporting identified Medicaid
overpayments as required. However, the remaining five providers had no reconciliation
procedures or did not adhere to established procedures.

Of the 54 account records with credit balances in our sample, 51 contained unresolved Medicaid
overpayments totaling $2,009 ($1,113 Federal share). On the basis of these results, we estimated
that the State agency could realize an additional statewide recovery of at least $899,745
($498,269 Federal share) from our audit period and obtain future savings if it enhanced its efforts
to recover overpayments in provider accounts.

ACCOUNT RECORDS WITH UNRESOLVED MEDICAID OVERPAYMENTS

As of September 30, 2011, five of the eight noninstitutional providers had no account records
with credit balances. The remaining 3 providers had 54 account records with unresolved credit
balances totaling $2,120. Although Medicaid had reimbursed these providers, the providers had
not reconciled, or otherwise evaluated, the account records to determine whether the unresolved
credit balances contained Medicaid overpayments that should have been returned to the State
agency.

Of the 54 account records with unresolved credit balances, 51 account records, totaling $2,009
($1,113 Federal share), or 94 percent, had unresolved Medicaid overpayments that were at least
60 days old, and some were more than 6 years old, as shown in Table 2.

              Table 2: Account Records With Unresolved Medicaid Overpayments
                                        Number of          Medicaid
                    Time Unresolved
                                      Account Records    Overpayment
                   60-365 days                2                     $152
                   1-2 years                  4                      202
                   2-3 years                 14                      633
                   3-4 years                  7                      361
                   4-5 years                  3                       69
                   5-6 years                 11                      292
                   More than 6 years         10                      300
                     Total                   51                   $2,009

The overpayments occurred because the providers submitted claims multiple times and
improperly coordinated insurance benefits. 3
3
 All three providers acknowledged that the overpayments occurred. We verified that the providers had reported
$254 ($157 Federal share) of the overpayments to the State agency subsequent to our audit period.


                                                       4


POLICIES AND PROCEDURES NOT ALWAYS FOLLOWED

The three providers with unresolved credit balances did not identify and report Medicaid
overpayments because the State agency did not require providers to exercise reasonable diligence
in reconciling account records containing credit balances to identify and return overpayments
that were due to the State agency. All three providers had policies and procedures in place for
reconciling account records with credit balances; however, the providers did not always follow
their procedures. Specifically, one provider made notes on patients’ records if the provider
discovered that credit balances were due but made no further efforts to return the overpayments
to the State agency. A second provider did not always reconcile payments received from
multiple insurers. Finally, a third provider performed preliminary reconciliations to identify
Medicaid overpayments. However, the provider did not ensure that reported overpayments were
successfully refunded and posted to account records.

MEDICAID OVERPAYMENTS AND ESTIMATED PROGRAM RECOVERIES

Of the 54 account records with credit balances in our sample, 51 contained Medicaid
overpayments totaling $2,009 ($1,113 Federal share) paid to 3 noninstitutional providers. The
State agency should refund the Federal share of those overpayments to CMS. (See Appendix B
for details of our sample results.)

We estimated that the State agency could realize an additional statewide recovery of at least
$899,745 ($498,269 Federal share) from our audit period and obtain future savings by requiring
providers to exercise reasonable diligence in reconciling account records with credit balances
and reporting the associated Medicaid overpayments. (See Appendix B for details of our
statewide estimate.)

RECOMMENDATIONS

We recommend that the State agency:

   •		 refund $2,009 ($1,113 Federal share) to the Federal Government for overpayments paid
       to the selected noninstitutional providers and

   •		 enhance its efforts to recover additional overpayments estimated at $899,745 ($498,269
       Federal share) from our audit period and realize future savings by requiring providers to
       exercise reasonable diligence in reconciling account records containing credit balances
       and reporting the associated Medicaid overpayments.

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In written comments on our draft report, the State agency did not indicate concurrence or
nonconcurrence with either of our recommendations. Regarding our first recommendation, the
State agency stated that its Office of the Medicaid Inspector General will review our
documentation and determine if a refund is appropriate. Regarding our second recommendation,


                                               5


the State agency stated that it will consider conducting credit balance reviews of noninstitutional
providers where feasible and as staffing resources allow.

The State agency’s comments are included in their entirety as Appendix C.

After reviewing the State agency’s comments, we maintain that our findings and
recommendations are valid.




                                                 6


APPENDIXES


                                                                                      Page 1 of 2


                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of New York noninstitutional Medicaid provider identification
numbers (provider IDs) in 15 categories of service that had at least 500 Medicaid paid claim
lines (claims) in the quarter ended September 30, 2011.

SAMPLING FRAME

The sampling frame consisted of an Excel file containing 5,536,515 claims associated with 3,591
noninstitutional Medicaid provider IDs in 15 categories of service with at least 500 Medicaid
paid claims for the quarter ended September 30, 2011. The Medicaid reimbursement for the
5,536,515 claims totaled $121,723,906 of which the Federal share totaled $61,148,296.
The Medicaid claims were extracted from the claims’ file maintained at the Medicaid
Management Information System fiscal agent.

SAMPLE UNIT

The primary sample unit was a noninstitutional Medicaid provider ID. The secondary sample
unit was a Medicaid credit balance in a provider’s account that was greater than $3 and
outstanding for at least 60 days as of September 30, 2011.

SAMPLE DESIGN

We used a multistage sample design with the primary sample units (noninstitutional Medicaid
provider IDs) selected from a population of 15 categories of service that had at least 500
Medicaid paid claims for the quarter ended September 30, 2011. The secondary sample units
(Medicaid credit balance(s) in a provider’s account that were greater than $3 and outstanding for
at least 60 days as of September 30, 2011) were selected from the primary sample units.

SAMPLE SIZE

We selected eight noninstitutional Medicaid provider IDs as the primary units. We identified
Medicaid credit balances at three providers as the secondary units. We reviewed 100 percent of
each provider’s secondary units, consisting of 2, 4, and 48 credit balances, respectively, for a
total of 54 secondary units.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General (OIG), Office of Audit
Services (OAS), statistical software.
                                                                                      Page 2 of 2


METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in the primary sample. After generating eight
random numbers for the primary sample, we selected the corresponding frame items. We
obtained a sampling frame of all Medicaid credit balance(s) greater than $3 and outstanding for
at least 60 days as of September 30, 2011, from each of the eight providers’ accounts. Three
providers met these selection criteria. We selected for review all credit balances for the three
providers.

ESTIMATION METHODOLOGY

We used the OAS statistical software to appraise the sample results. We estimated the
overpayment associated with the unallowable claims at the lower limit of the 90-percent
confidence interval.
                       APPENDIX B: SAMPLE RESULTS AND ESTIMATES



                       SAMPLE RESULTS OF MEDICAID OVERPAYMENTS



                    Frame         Total         Number      Total   Amount of   Federal Share
    Provider         Size        Number        of Sample Value of    Actual          of
                                 Reviewed       Items in   Sample Overpayments Overpayments
                                                 Error
Provider 1                  2             2              1     $54           $3             $2
Provider 2                  4             4              4     251          251            155
Provider 3                  0             0              0        0           0              0
Provider 4                  0             0              0        0           0              0
Provider 5                  0             0              0        0           0              0
Provider 6                  0             0              0        0           0              0
Provider 7                 48            48            46    1,815        1,755            956
Provider 8                  0             0              0        0           0              0
  Total                    54            54            51   $2,120       $2,009         $1,113


                       STATEWIDE ESTIMATE OF POTENTIAL SAVINGS 1



                                   Estimated Value of Overpayments


                         (Limits Calculated for a 90-Percent Confidence Interval)

                                Point estimate                              $901,754
                                Lower limit                               $(378,764)
                                Upper limit                               $2,182,272

                     Estimated Value of Medicaid Overpayments (Federal Share)
                       (Limits Calculated for a 90-Percent Confidence Interval)

                                Point estimate                              $499,382
                                Lower limit                               $(198,342)
                                Upper limit                               $1,197,107




1
    The estimated value of overpayments includes the value of overpayments in the sample.
                                                                                                         Page 1 of 2


                 APPENDIX C: STATE AGENCY COMMENTS



====================~~ ~a~~a~~n~~ l~=====================
Howard A Zucker, M.D., J.D.
Acting Commissioner of Health
                                      HEALTH                                                Sue Kelly
                                                                        Execut ive Deputy Commissioner




                                                      June 5, 2014




Mr. James P. Edert
Regional Inspector General for Audit Services
Department of Health and Human Services
Office of the Inspector General
Jacob Javits Federal Building
26 Federal Plaza, Room 3900
New York, NY 10278
                                                      Ref. No. A-02-11-01036
Dear Mr. Edert:

Enclosed are the Department of Health's comments on the U.S. Department of Health and
Human Services, Office of Inspector General Draft Audit Report #A-02-11-01 036 entitled,
"Noninstitutional Providers in New York Did Not Always Reconcile Account Records with
Credit Balances and Report the Associated Medicaid Overpayments to the State Agency."

Thank you for the opportunity to comment.
                                                      Sincerely,

                                                d'lLch.ael J.. dfazatclco
                                                      Michael J. Nazarko
                                                      Deputy Commissioner
                                                       for Administration

Enclosure
cc:     Jason A. Helgerson
        James C. Cox
        Diane Christensen
        Lori Conway
        Robert Loftus
        Joan Kewley
        James Russo
        Ronald Farrell
        Brian Kiernan
        Elizabeth Misa
        OHIP Audit BML

                                       HEALTH.NY.GOV
                                       facebook.com/NYSDOH
                                      twitter.com/HealthNYGov
                                                                                                       Page 2 of 2






               New York State Department of Health
                         Comments on the
            Department of Health and Human Services
                    Office of Inspector General
             Draft Audit Report A-02-11-01036 Entitled
 Noninstitutional Providers in New York Did Not Always Reconcile
 Account Records with Credit Balances and Report the Associated
            Medicaid Overpayments to the State Agency

The following are the New York State Department ofHealth's (Department) comments in response
to the Department of Health and Human Services (HHS), Office of Inspector General' s (OIG)
Draft Audit Report A-02-1 1-0 1036 entitled, "Noninstitutional Providers in New York Did Not
Always Reconcile Account Records with Credit Balances and Report the Associated Medicaid
Overpayments to the State Agency."

Recommendation #1

Refund $2,009 ($ 1,11 3 Federal share) to the Federal Government for overpayments paid to the
selected non-institutio nal providers.

Response #1

The Office of the Medicaid Inspector General (OMIG) requested the documentation for review
from the OIG. After review of that documentatio n, the OMIG will determine if a refund is
appropriate.

Recommendation #2:

Enhance its efforts to recover additional overpayments estimated at $899,745 ($498,269 Federal
share) from our audit period and realize future savings by requiring providers to exercise
reasonable diligence in reconciling account records containing credit balances and reporting the
associated Medicaid overpayments.

Response #2:

The OMJG' s Recovery Audit Contractor (RAC) conducts credit balance reviews fo r large
institutional providers such as hospitals. During calendar years 2011-20 13, the contractor
recovered over $ 19 million based o n credit balance reviews. Conducting credit balance reviews
of non-institutio nal providers will be considered, where feasible, and as staffing resources allow.
